                                                                Issue Date
                                                                         January 25, 2007
                                                                Audit Report Number
                                                                         2007-CH-1002




TO:        Robert E. Nelson, Director of Public Housing Hub, 5FPH


FROM:      Heath Wolfe, Regional Inspector General for Audit, 5AGA

SUBJECT: Benton Harbor Housing Commission, Benton Harbor, Michigan, Did Not
           Effectively Manage Its Public Housing Program and Has Not Used Special
           Purpose Grant Funds It Received More Than Nine Years Ago

                                   HIGHLIGHTS

 What We Audited and Why

             We audited the Benton Harbor Housing Commission’s (Commission) public
             housing program (program) and its home ownership program funded with Special
             Purpose Grant (Grant) funds from the City of Benton Harbor (City). The audit
             was conducted based upon a request from the U.S. Department of Housing and
             Urban Development’s (HUD) Detroit Office of Public Housing. Our objectives
             were to determine whether the Commission effectively maintained its program
             units in accordance with applicable requirements and appropriately used its
             program operating subsidies and the City’s Grant funds. This is the second of two
             audit reports on the Commission.

 What We Found

             The Commission did not maintain the 42 program units statistically selected for
             inspection in good repair, order, and condition. There were 1,079 deficiencies,
             including 167 which HUD requires to be corrected within 24 hours, in the 42
             units (average of 25.71 deficiencies per unit). In addition, the Commission did
             not always conduct its annual program unit inspections within one year. Based on
             our statistical sample, we estimate that over the next year HUD will pay more
             than $153,000 in program operating subsidies for the Commission’s units that are
             not maintained in good repair, order, and condition.
         The Commission did not comply with HUD’s requirements and its policies in
         administering its program’s admission and occupancy process. It was unable to
         support nearly $167,000 in program operating subsidies received, did not receive
         total household payments of nearly $2,900, received excess total household
         payments of $218, underpaid more than $1,500 in utility allowance payments, and
         was unable to support more than $7,500 in total household payments received.

         The Commission lacked an effective maintenance process to ensure program unit
         deficiencies were identified and repaired in a timely manner. It did not have an
         approved maintenance policy, implement a preventive maintenance program,
         complete work orders in accordance with HUD’s requirements and/or its
         maintenance policy, and turn around 98 program units in a timely manner. In
         addition, the Commission inappropriately received nearly $10,000 in excess
         program operating subsidies for eight units that were vacant for more than 12
         months. We estimate that over the next year the Commission will not receive
         nearly $50,000 in household payments due to program units being vacant more
         than 30 days.

         The Commission failed to properly administer its home ownership program in
         accordance with its master participation agreement with eight lending institutions.
         As a result, the City’s residents have not benefited from more than $1 million in
         financing for the purchase and rehabilitation of family residential owner-occupied
         homes as of November 2006. In addition, the Commission has not used $240,000
         in Grant funds it received from the City more than nine years ago for the home
         ownership program and nearly $83,000 in interest earned on the Grant funds.

         We informed the Authority’s executive director and the director of HUD’s Detroit
         Office of Public Housing of minor deficiencies through a memorandum, dated
         January 22, 2007.

What We Recommend

         We recommend that the director of HUD’s Detroit Office of Public Housing
         require the Commission to reimburse its program from nonfederal funds for the
         improper use of funds, provide support or reimburse its program from nonfederal
         funds for the unsupported payments, and implement adequate procedures and
         controls to address the findings cited in this audit report. These procedures and
         controls should help ensure that nearly $203,000 in program funds is spent
         according to HUD’s requirements.

         We also recommend that the director of HUD’s Detroit Office of Public Housing,
         in coordination with the director of HUD’s Detroit Office of Multifamily
         Housing, require the Commission to reimburse the City $240,000 from its home
         ownership program’s accounts so the City can use the Grant funds to support
         housing rehabilitation, transfer to its general fund nearly $83,000 from its home
         ownership program’s accounts so it can use the funds to provide housing services
         in accordance with the Michigan Compiled Laws, and provide support or transfer


                                          2
           more than $60,000 from its home ownership program’s accounts so it can use the
           monies to provide housing services in accordance with the Michigan Compiled
           Laws.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence issued because of the audit.


Auditee’s Response

           We provided our discussion draft audit report to the Commission’s executive
           director, its board chairman, and HUD’s staff during the audit. We held an exit
           conference with the Commission’s executive director on January 3, 2007.

           We asked the Commission’s executive director to provide comments on our
           discussion draft audit report by January 10, 2007. The executive director provided
           written comments, dated January 9, 2007. The executive director generally agreed
           with our findings. The complete text of the written comments, except for 303 pages
           of supporting documentation that were not necessary to understand the executive
           director’s comments, along with our evaluation of that response, can be found in
           appendix B of this report. We provided HUD’s director of the Detroit Office of
           Public Housing with a complete copy of the Authority’s written comments plus the
           303 pages of supporting documentation.




                                            3
                             TABLE OF CONTENTS

Background and Objectives                                                           5

Results of Audit

        Finding 1: The Commission’s Program Units Were Not in Good Repair, Order,
                   and Condition                                                    7

        Finding 2: Controls over the Program’s Admission and Occupancy Processes
                   Were Inadequate                                                  14

        Finding 3: The Commission Lacked an Effective Maintenance Program           19

        Finding 4: The Commission Has Not Used Grant Funds It Received More Than
                   Nine Years Ago                                                   24

Scope and Methodology                                                               27

Internal Controls                                                                   29

Followup on Prior Audits                                                            31

Appendixes

   A.   Schedule of Questioned Costs and Funds to Be Put to Better Use              32
   B.   Auditee Comments and OIG’s Evaluation                                       33
   C.   Criteria                                                                    37
   D.   Household File Reviews – Missing or Incomplete Documentation                42




                                             4
                       BACKGROUND AND OBJECTIVES

The Benton Harbor Housing Commission (Commission) is a municipal corporation established by
the City of Benton Harbor, Michigan (City), in 1946 under section 125.653 of the Michigan
Compiled Laws to provide decent, safe, and sanitary housing for low-income families under the
United States Housing Act of 1937. The Commission is governed by a five-member board of
commissioners (board) appointed by the City’s mayor to five-year staggered terms. The board’s
responsibilities include overseeing the Commission’s operations, as well as the review and approval
of its policies. The board appoints the Commission’s executive director, who serves as the board’s
secretary. The executive director is responsible for fulfilling the goals and objectives established by
the board.

The Commission administers a public housing program (program) funded by the U.S. Department
of Housing and Urban Development (HUD) in the City through program operating subsidies. The
Commission provides assistance to low-income individuals seeking decent, safe, and sanitary
housing. It currently manages 276 federally assisted program units in two complexes and scattered
sites. It received more than $1.3 million in program operating subsidies between October 2004 and
February 2006.

HUD assessed the Commission’s program performance for fiscal year 2003, October 2002 through
September 2003, based on HUD’s regulations at 24 CFR [Code of Federal Regulations] Part 902.
The assessment included a management review conducted from July through September 2004.
HUD scored the Commission’s program at 68. However, HUD scored the Commission’s financial
condition as substandard. As a result, HUD executed a memorandum of agreement with the
Commission, dated October 2004, requiring it to improve its program performance. HUD assessed
the Commission’s program performance for fiscal year 2004 and scored it at less than 60, making
the Commission a troubled housing authority. In addition, HUD had a consulting firm, MDStrum
Housing Services, Inc. (MDStrum), conduct an independent assessment of the Commission from
March 28 through April 1, 2005, to identify key issues/problems or concerns affecting the
Commission. MDStrum identified problems affecting the Commission’s physical, financial,
management, and resident service conditions. As a result, HUD executed an amended
memorandum of agreement with the Commission, dated August 2005, requiring the Commission to
improve its score to 60 or above within a two year period. HUD scored the Commission’s program
performance for fiscal year 2005 as a 43, maintaining the Commission’s status as a troubled housing
authority.

The U.S. House of Representatives’ Conference Report 102-226 set aside $500,000 in Special
Purpose Grant (Grant) funds to support housing rehabilitation in the City. In March 1994, HUD
awarded the City a $500,000 Grant, MI28-SPG-25, for housing rehabilitation of existing structures
in the City to be administered by the City’s Community Development Department and closely
coordinated with Property Management Corporation and other housing entities in the community.
HUD approved an amended budget for $360,000 of the Grant funds in February 1997. The
following table contains the changes to the budget.




                                                   5
                                                                     Budget amount
                                Expense item                     Original     Amended
            Rehabilitation financing                              $330,000
            Security systems                                        30,000
            Loan loss reserve fund                                             $150,000
            Downpayment assistance                                              120,000
            Secondary mortgage pool for housing rehabilitation                   90,000
                                   Totals                         $360,000     $360,000

The loan loss reserve fund and secondary mortgage pool for housing rehabilitation were for a
home ownership program to be administered by the Commission. The home ownership program
target was 30 projects in its first year. The Commission and eight lending institutions entered
into a master participation agreement (agreement) in September 1997 to establish the home
ownership program with a $1 million loan fund to be used to finance in whole, or in part, the
purchase and rehabilitation of family residential owner-occupied homes in the City.

Our objectives were to determine whether the Commission effectively maintained its program
units in accordance with applicable requirements and appropriately used its program operating
subsidies and the City’s Grant funds. This is the second of two audit reports on the Commission.




                                                     6
                                RESULTS OF AUDIT

Finding 1: The Commission’s Program Units Were Not in Good Repair,
                      Order, and Condition
The Commission did not maintain its program units in good repair, order, and condition. All 42
program units statistically selected for inspection were not in good repair, order, and condition.
We identified 1,079 deficiencies, including 167 which HUD requires to be corrected within 24
hours, in the 42 units. Our appraiser estimated that the units needed more than $120,000 in
required repairs to be in good repair, order, and condition. In addition, the Commission did not
always conduct its annual program unit inspections within one year. The deficiencies existed
because the Commission failed to exercise proper supervision and oversight of its program unit
inspections. It also lacked adequate procedures and controls to ensure that its program units met
HUD’s uniform physical condition standards (standards) and the 2003 International Property
Maintenance Code (Code). As a result, nearly $30,000 in program operating subsidies was not
used efficiently and effectively, and program households lived in units that were not in good
repair, order, and condition. Based on our statistical sample, we estimate that over the next year
HUD will pay more than $153,000 in subsidies for program units that are not maintained in good
repair, order, and condition.



 The Commission Did Not
 Maintain Program Units in
 Good Repair, Order, and
 Condition

               From the 109 program units the Commission inspected between March 22 and June
               16, 2006, we statistically selected 42 program units for inspection using the U.S.
               Army Audit Agency’s Statistical Sampling System software. Our appraiser
               inspected the 42 units from June 26 through July 14, 2006, to determine whether the
               Commission ensured that its units met HUD’s standards and the Code.

               The 42 program units we inspected had 1,079 deficiencies, including 167 which
               HUD requires to be corrected within 24 hours, indicating that the units were not
               in good repair, order, and condition. The 42 units had 834 deficiencies that
               existed before the Commission’s previous inspections. The Commission noted
               239 of the 834 deficiencies in its previous inspections and/or work orders. All 42
               of the units were considered to be in material noncompliance since they had
               multiple preexisting deficiencies and/or the deficiencies were noted in the
               Commission’s previous inspections and/or work orders but not corrected. Our
               appraiser estimated that the units needed more than $120,000 in required repairs
               to be in good repair, order, and condition. The following table categorizes the
               1,079 standards and/or Code deficiencies in the 42 units.




                                                7
                                                                   Number of
                                    Types of deficiencies          deficiencies
                         Doors, windows, and screens                   174
                         Electrical fixtures and systems               156
                         Cabinets, doors, closets, and hardware        122
                         Smoke detectors                                84
                         Exterior walls and foundations                 73
                         Painting                                       68
                         Walls and ceilings                             65
                         Floors, carpets, and tiles                     39
                         Heating and air conditioning                   37
                         Refrigerators and ranges                       34
                         Roofs, flashing, and vents                     31
                         Exterior lighting                              29
                         Plumbing fixtures and systems                  29
                         Exterior painting                              22
                         Caulking and weather-stripping                 22
                         Lawns and plantings                            17
                         Exterminating                                  14
                         Stairs, walkways, and community spaces         14
                         Hot water systems/boiler rooms                 12
                         Storm doors and windows                         7
                         Garbage disposal and exhaust fans               7
                         Fences, walls, and gates                        6
                         Laundry rooms                                   5
                         Gutters, downspouts, and splash blocks          4
                         Walks, steps, and guardrails                    4
                         Drives, parking lots, paving, and curbs         3
                         Underground gas, water, and sewage              1
                                             Total                    1,079

           We provided our inspection results to the director of HUD’s Detroit Office of Public
           Housing and the Commission’s executive director.

Units Had Door, Window, and
Screen Deficiencies

           One hundred seventy-four exterior door, window, and screen deficiencies were
           present in 35 of the Commission’s 42 program units inspected. The following
           items are examples of deficiencies listed in the table: windows not locking,
           entrance doors unable to be opened, broken doorjambs, entrance doors and frames
           with peeling paint, torn or missing screens in windows and entrance storm doors,
           and bent window screen frames. The following pictures are examples of exterior
           door- window- and screen-related deficiencies identified in the Commission’s
           program units inspected.




                                              8
Unit #007-0718: broken
doorjamb.




Unit #002-0096: bent
window screen frame.




 Units Had Electrical Fixture
 and System Deficiencies

                One hundred fifty-six electrical fixture and system deficiencies were present in 39 of
                the Commission’s 42 program units inspected. The following items are examples of
                electrical deficiencies listed in the table: outlets with open grounds; ground fault
                circuit interrupter outlets not tripping; light fixtures hanging by wires; light fixtures
                missing protective globes; missing light switch plates; broken and missing electrical
                outlet cover plates; loose electrical outlets; missing circuit breaker covers, exposing
                electrical contacts; and missing knockout plugs, exposing electrical contacts. The



                                                   9
                  following pictures are example of the electrical deficiencies identified in the
                  Commission’s program units inspected.

Unit #005-0419: exterior
light hanging from wires
with exposed electrical
contacts.




Unit #005-0437: missing
outlet cover plate and
outlet, exposing electrical
contacts.




 Units Had Cabinet, Door,
 Closet, and Hardware
 Deficiencies
                  One hundred twenty-two cabinet, door, closet, and hardware deficiencies were
                  present in 33 of the Commission’s 42 program units inspected. The following items
                  are examples of cabinet, door, closet, and hardware deficiencies listed in the table:
                  loose doorframes, broken doorjambs, closet doors off hinges and leaning against
                  openings, holes in bedroom doors, missing door latches and strike plates,


                                                    10
                 deteriorated doors and fronts of sink cabinets, broken kitchen cabinets drawers, and
                 failed hinges on cabinet doors. The following pictures are examples of cabinet-,
                 door-, closet-, and hardware-related deficiencies identified in the Commission’s
                 program units inspected.

Unit #007-0732: broken
doorjamb, missing strike
plate, and loose doorknob.




Unit #007-0722: cabinet
door broken at hinge and
will not close properly.




                 HUD’s 2004 management review identified that the Commission’s units contained
                 deficiencies similar to the ones cited in this finding. HUD noted multiple
                 deficiencies for 27 (97 percent) out of a sample of 28 units. In addition, HUD’s
                 report stated that the Commission did not adequately maintain its units to provide
                 decent, safe, and sanitary housing for households, and that in general, the units were
                 in deplorable condition. In addition, HUD’s agreement with the Commission, dated
                 August 2005, states the Commission’s properties are in poor condition and that the


                                                   11
           properties must meet HUD’s standards. The Commission has been aware of the unit
           conditions since 2004. As previously discussed, the condition of the Commission’s
           units is still a problem.

The Commission Did Not
Conduct Annual Inspections in
a Timely Manner


           The Commission did not always perform its annual inspections within one year. Of
           the 202 units the Commission inspected during calendar year 2006, 18 (8.9 percent)
           inspections were not conducted in accordance with the annual requirement. Of the
           18 late annual inspections, 16 were less than 30 days late, one was more than 30
           days late, and another had not been inspected as of November 6, 2006, 194 days
           overdue.

           HUD’s 2004 management review identified that the Commission was not
           conducting annual inspections within one year. HUD stated that the Authority had
           not performed an annual inspection for 181 (53 percent) of 341 units as of July 2004.
           In addition, the Authority’s last annual inspection for 110 of the 181 units was
           before January 2003.

Deficiencies Were Caused by
Procedures and Control
Weaknesses


           The standards and/or Code deficiencies existed because the Commission failed to
           exercise proper supervision and oversight of its program unit inspections. It also
           lacked adequate procedures and controls to ensure that its program units met HUD’s
           standards and the Code. The Commission did not have qualified housing inspectors
           to conduct inspections of the program units. Its housing managers conducted the
           inspections. In addition, the Commission did not ensure that its housing managers
           and supervisors received adequate standards and Code training, and supervisors did
           not perform quality control reviews of the inspections. Further, the Commission
           scheduled more than 95 percent of its inspections within April and June, rather than
           inspecting units throughout the year, and did not have an effective maintenance
           program (see finding 3).

           The Commission plans to provide its maintenance staff training on HUD’s standards
           once HUD approves the Commission’s training budget. In addition, the
           Commission had the U.S. Inspection Group, Inc., to inspect its program units for
           deficiencies and plans to correct the deficiencies, before HUD’s inspections in
           March 2007.

           The late annual inspections occurred because the Commission lacked adequate
           procedures and controls to track the timeliness of inspections and identify the units
           that needed to be inspected.


                                             12
Conclusion

             The Commission’s households were subjected to deficiencies that HUD requires to
             be corrected within 24 hours, and the Commission did not properly use its program
             operating subsidies when it failed to ensure that program units complied with
             HUD’s standards and the Code. The Commission received $29,570 in operating
             subsidies from HUD for the 42 units that were in material noncompliance.

             If the Commission implements adequate procedures and controls over its program
             unit inspections to ensure compliance with HUD’s standards and the Code, we
             estimate that it will receive $153,036 in future program operating subsidies for units
             that are in good repair, order, and condition. We determined this amount by
             multiplying 109 units (our sample universe) by $234 (the Commission’s per unit
             month program operating subsidy) and 50 percent (our sample error rate). We then
             annualized this amount to obtain a total estimate.

Recommendations

             We recommend that the director of HUD’s Detroit Office of Public Housing
             require the Commission to

             1A.    Reimburse its program $29,570 from nonfederal funds for the 42 units
                    cited in this finding that were in material noncompliance.

             1B.    Implement adequate procedures and controls over its inspection process to
                    ensure that all units meet HUD’s standards and the Code to prevent HUD
                    from providing the Commission $153,036 in program operating subsidies
                    for units that are not in good repair, order, and condition for the next 12
                    months.

             1C.    Implement adequate procedures and controls to ensure that inspection
                    supervisors assure that program units are inspected at least annually to
                    meet HUD’s standards and the Code.

             1D.    Repair and certify that it repaired the standards and Code deficiencies for
                    the 42 program units cited in this finding.

             1E.    Conduct complete inspections of all of its program units not cited in this
                    finding to identify deficiencies and perform the necessary repairs to
                    correct the deficiencies.

             We also recommend that the director of HUD’s Detroit Office of Public Housing

             1F.    Revise the August 2005 memorandum of agreement with the Commission
                    to ensure that it encompasses the recommendations cited in this finding.



                                               13
Finding 2: Controls over the Program’s Admission and Occupancy
                      Processes Were Inadequate
The Commission did not comply with HUD’s requirements and its program admission and
continued occupancy policies (policies) in managing its program’s admission and occupancy
processes. It lacked documentation to support that households were eligible, incorrectly
calculated households’ total household payments and utility allowances, and made inaccurate
utility allowance payments because it lacked adequate procedures and controls to ensure that
HUD’s requirements and its program policies were appropriately followed. As a result, it was
unable to support nearly $167,000 in program operating subsidies received, did not receive total
household payments of nearly $2,900, received excess total household payments of $218,
underpaid more than $1,500 in utility allowance payments, and was unable to support more than
$7,500 in total household payments received.



 The Commission Lacked
 Documentation to Support
 Nearly $167,000 in Program
 Operating Subsidies Received

              The Commission lacked documentation to support that $166,782 in program
              operating subsidies received for the period October 2004 through March 2006
              were for eligible households. Of the 53 households’ files statistically selected for
              review, 51 (96 percent) were missing documents as follows:

                  •   40 were missing proof of legal identity,
                  •   37 were missing proof of Social Security numbers,
                  •   26 were missing proof of criminal activity screening, and
                  •   5 were missing 90-day zero-income certification(s).

              The 51 files did not include documentation required by HUD and the
              Commission’s policies. Appendix D of this report shows the results of our
              household file reviews.

              In addition, the Commission failed to conduct 90-day income reexaminations for
              four of the five zero-income households.

              MDStrum’s 2005 assessment identified that the Commission did not maintain
              support for criminal activity screenings in accordance with HUD’s requirements.
              The assessment did not provide any additional details regarding the issue.




                                               14
The Commission Incorrectly
Calculated Total Household
Payments and Utility
Allowances


           The Commission incorrectly calculated households’ total household payments and
           utility allowances and made inaccurate utility allowance payments, resulting in
           lost total household payments of $2,891, excess total household payments of
           $218, and underpayments of utility assistance payments totaling $1,509 from
           October 2004 through March 2006. To determine whether the Commission
           correctly calculated total household payments and utility allowances, we reviewed
           the Commission’s annual certifications affecting payments from October 2004
           through March 2006 from 53 program household files statistically selected for
           review. The Commission incorrectly calculated total household payments and/or
           utility allowances or made inaccurate utility allowance payments for 16 (30
           percent) of the 53 households for one or more certifications. The 16 household
           files contained 11 annual income calculation errors, three incorrect utility
           allowance payments, and two failures to establish repayment agreements for one
           or more years. The following table shows the overpayment and underpayment of
           total household payments for the 13 household files that contained annual income
           calculation errors or failures to establish repayment agreements for one or more
           years.

                      2004 total      2005 total      2006 total              Total household
                      household       household       household      Overpayments      Underpayments
         Household   over/under-     over/under-     over/under-     (excess rental      (lost rental
          number      payments        payments        payments          income)            income)
         02-118-14             $0           ($71)              $0                 $0               ($71)
         02-116-10               0             20              (6)                20                  (6)
         02-125-18               0               0          (285)                   0              (285)
         02-126-12               0               0           (33)                   0               (33)
         02-129-13               0             44                0                44                    0
         02-168-17               0          (166)                0                  0              (166)
         03-226-10               0           (55)            (33)                   0               (88)
         03-230-08               0               0             (7)                  0                 (7)
         05-406-02               0               0             (7)                  0                 (7)
         05-429-02               0               0            154                154                    0
         07-726-01            (6)            (12)                0                  0               (18)
         07-728-01               0        (1,183)           (507)                   0            (1,690)
         09-909-03               0          (130)           (390)                   0              (520)
           Totals            ($6)        ($1,553)        ($1,114)               $218            ($2,891)

           MDStrum’s 2005 assessment identified that the Commission did not consistently
           calculate total household payments appropriately. The assessment did not provide
           any additional details regarding the issue.

           The Commission made utility allowance underpayments to household number 07-
           722-03 in 2005 totaling $1,199 and in 2006 totaling $129, household number 02-




                                               15
           149-12 in 2006 totaling $118, and household number 09-911-02 in 2006 totaling
           $63.

           The Commission correctly calculated total household payments and utility
           allowances and made accurate utility allowance payments for 28 (53 percent)
           households. It lacked sufficient income documentation to support total household
           payments for one or more years for 13 (25 percent) households totaling $7,583.
           The following table shows the unsupported total household payments for the 13
           household files for one or more years.

                        Household        Unsupported total household payments
                         number        2004       2005         2006       Total
                        02-101-14           $0       $484           $0        $484
                        02-129-13            0           0         159         159
                        02-149-12            0      2,145          585       2,730
                        02-162-18            0        222          333         555
                        03-230-08            0         40            8          48
                        03-239-02            0         12           12          24
                        05-406-02            0      1,190          238       1,428
                        05-408-03            0         32           24          56
                        05-440-02            0         24            0          24
                        07-712-04            0           0         181         181
                        07-721-03            0         28            0          28
                        09-909-03         121       1,331            0       1,452
                        09-913-02            0           0         414         414
                          Totals         $121      $5,508       $1,954      $7,583


The Commission Incorrectly
Calculated Total Household
Payments Involving a Resident
Employee


           In addition, we reviewed two households’ files involving resident employees.
           The Commission incorrectly calculated total household payments for one of the
           households, household number 02-175-20, resulting in excess total household
           payments of $504 from June 2003 through December 2005, and lost total
           household payments of $1,991 from January 2006 through June 2006. The
           Commission’s grounds keeper moved into the household in January 2006. The
           overpayments occurred because the Commission did not include the proper
           dependent deductions, while the underpayments occurred due to the Commission
           not including the grounds keeper’s income.


The Commission’s Procedures
and Controls Had Weaknesses

           The weaknesses regarding missing documentation, incorrect calculations, and
           inappropriate utility allowance payments occurred because the Commission
           lacked adequate procedures and controls to ensure that it appropriately followed


                                           16
             HUD’s requirements and its policies. The Commission did not ensure that it fully
             implemented HUD’s requirements and its policies and that file management
             procedures were standardized.

             The executive director said the Commission performed criminal background
             checks on households’ members but destroyed the documentation. She did not
             realize that it was necessary to keep a record of the criminal background checks in
             the households’ files. The overpayment and underpayment of total household
             payments and underpayment of utility allowance payments occurred because the
             Commission did not appropriately calculate annual income and utility allowances,
             failed to establish repayment agreements, calculated income based on prior
             income documentation, and calculated income with no support. The executive
             director said the housing managers did not have adequate knowledge and needed
             additional training in performing certifications. The Commission’s policies also
             did not address how households would be reimbursed when they overpaid total
             household payments and the Commission underpaid utility assistance payments.

Conclusion


             The Commission did not properly use its program funds when it failed to comply
             with HUD’s requirements and its policies. As previously mentioned, the
             Commission was unable to support $166,782 in program operating subsidies
             received, did not receive total household payments of $2,891, received excess
             total household payments of $218, underpaid $1,509 in utility allowance
             payments, and was unable to support $7,583 in total household payments
             received.

Recommendations

             We recommend that the director of HUD’s Detroit Office of Public Housing
             require the Commission to

             2A.    Provide supporting documentation or reimburse its program $166,782
                    from nonfederal funds for the unsupported operating subsidies related to
                    the 51 household files cited in this finding.

             2B.    Reimburse its program $4,882 ($2,891 for lost total household payments
                    for 13 households and $1,991 for lost total household payments for one
                    household) from nonfederal funds.

             2C.    Reimburse the appropriate households $2,231 ($218 for excess total
                    household payments for three households, $1,509 for the underpayment of
                    utility assistance payments for three households, and $504 for excess total
                    household payments for one household).




                                             17
2D.    Provide supporting documentation or reimburse the appropriate
       households $7,583 for the lack of sufficient income documentation to
       support total household payments by 13 households.

2E.    Implement adequate procedures and controls over its admission and
       occupancy processes to ensure that it meets HUD’s requirements and
       follows the Commission’s policies. These procedures and controls should
       include but not be limited to ensuring that all required documentation is
       obtained and maintained in the Commission’s current household files to
       support households’ eligibility and total household payment and utility
       allowance calculations are correct.

2F.    Revise its policies to address how households will be reimbursed when they
       overpay total household payments and the Commission underpays utility
       assistance payments.

We also recommend that the director of HUD’s Detroit Office of Public Housing

2G.    Revise the August 2005 memorandum of agreement with the Commission
       to ensure that it encompasses the recommendations cited in this finding.




                                18
Finding 3: The Commission Lacked an Effective Maintenance
                            Program
The Commission did not have an effective maintenance program to ensure that program unit
deficiencies were identified and repaired in a timely manner. It did not have a board-approved
maintenance policy, implement a preventive maintenance program, complete work orders in
accordance with HUD’s requirements and/or its maintaintenance policy, charge households for
damages, and turn around program units in a timely manner. In addition, the Commission
inappropriately received full program operating subsidies for units that were vacant more than 12
months. The problems occurred because the Commission lacked adequate procedures and
controls over its maintenance program. As a result, HUD lacks assurance that the Commission
used program operating subsidies to maintain its program units in good repair, order, and
condition, and that it inappropriately received nearly $10,000 in excess program operating
subsidies for eight units that were vacant more than 12 months. We estimate that over the next
year the Commission will not receive nearly $50,000 in total household payments due to
program units being vacant more than 30 days.



 The Commission Did Not
 Implement Its Preventive
 Maintenance Program

              Although the Commission has a maintenance policy that includes a preventive
              maintenance program, its board had not approved the maintenance policy as of
              December 2006. In addition, the Commission’s annual and five-year plans and its
              policies did not refer to the maintenance policy.

              The Commission could not provide documentation showing how the preventive
              maintenance program was implemented or evidence of scheduled preventive
              maintenance performed. The purpose of the scheduled preventive maintenance
              program is to allow the Commission to anticipate maintenance requirements and
              ensure that the Commission addresses them in the most cost-effective manner. The
              preventive maintenance program focuses on the major systems that keep the
              properties operating. These systems include heating and air conditioning, electrical,
              life safety, and plumbing.

              HUD’s 2004 management review identified that the Commission did not have a
              maintenance policy. MDStrum’s 2005 assessment identified that the Commission
              did not perform preventive maintenance.




                                               19
The Commission Needs to
Improve Its Work Order
Process


           The Commission did not complete work orders in accordance with HUD
           requirements and/or its maintenance policy. We reviewed the Commission’s 242
           work orders generated from October 1, 2005, through June 30, 2006, for the 42
           units statistically selected to determine whether the Commission completed work
           orders appropriately and completed repairs in a timely manner.

           The Commission did not properly complete and/or did not include the required
           information for at least 199 (82 percent) of the work orders reviewed. The
           following table lists the number of work orders with improperly completed and/or
           missing required information.

                                                                  Number of
                              Required information                work orders
                Cost of the repairs                                  148
                Description of the work requested and performed      108
                Source of request information                        103
                Detail of materials used                              59
                Resident signature                                    46
                Actual time to complete the work                      28
                Preprinted work order number                          19
                Household charges                                     10
                Worker signature                                       6

           For example, the description of the work requested and performed in work order
           number 20199, dated October 25, 2005, for unit 007-733 stated that water may be
           leaking and that there was no leak, respectively. The descriptions do not detail
           the possible problem and what was done to determine whether there was a leak.
           In addition, work order number 20826, dated March 15, 2006, was for the
           replacement of siding for unit number 005-417. However, the work order did not
           contain the amount and type of materials used and the cost of the repairs.

           The Commission did not complete 2 of the 41 emergency work orders within 24
           hours. The average completion time for the two work orders was 18 days. The
           work orders were for the opening of front doors that could not be opened.
           Another three emergency work orders did not contain a completion date.
           Therefore, HUD and the Commission lack assurance that the required repairs
           were completed timely.

           The Commission did not complete 7 of the 201 non-emergency work orders within
           seven days as required by its maintenance policy. The completion time for the seven
           work orders varied from 13 to 49 days. Another 13 work orders did not contain a
           start and/or a completion date.




                                               20
           HUD’s 2004 management review evaluated the Commission’s logs for work
           orders generated from October 2003 through July 2004. The emergency work
           order log showed that the Commission did not complete 66 of the 278 emergency
           work orders. In addition, HUD selected 19 of the emergency work orders for
           review, and identified that the Commission did not complete seven of the work
           orders within 24 hours. The completion time for the seven work orders varied
           from 5 to 38 days. Further, two of the emergency work orders did not contain a
           start and/or completion time and date. The non-emergency work order log
           showed that the Commission did not complete 464 of the 1,056 non-emergency
           work orders.

           Further, HUD selected 27 of the non-emergency work orders for review, and
           identified that the Commission did not complete nine of the work orders within
           seven days. The completion time for the nine work orders varied from 14 to 214
           days. One of the non-emergency work orders did not contain a completion date.
           MDStrum’s 2005 assessment identified that the Commission’s work order
           response was inadequate. In addition, MDStrum reviewed the Commission’s 378
           emergency work orders generated from October 2003 through September 2004,
           and concluded that the Commission did not complete at least 75 (20 percent) of
           the emergency work orders within 24 hours. The Commission has been aware of
           problems with its work order process since 2004. As previously mentioned, the
           Commission still needs to improve its work order process.

The Commission’s Units Were
Vacant More Than 30 Days

           The Commission’s lack of an effective maintenance program and the condition of
           its program units (see finding 1) resulted in 98 program units being vacant more
           than 30 days. Thirty units that were turned around in fiscal year 2005 were
           vacanct for an average of 98 days, or more than three months. An additional 77
           units that were turned around in fiscal year 2006 were vacant for an average of
           211 days, or more than seven months. The Commission’s executive director said
           program applicants refused housing due to the condition of the units.

The Commission Received Full
Subsidies for Units That Were
Vacant More Than 12 Months

           The Commission inappropriately received full program operating subsidies for
           units that were vacant more than 12 months. Long-term vacant units are only
           eligible to receive 20 percent of the total subsidy. However, the Commission
           included eight long-term vacant units in its subsidy calculations and received
           excess subsidies totaling $9,501 for the units from October 2004 through June
           2006.




                                           21
The Commission Lacked
Adequate Procedures and
Controls

             The Commission lacked adequate procedures and controls over its maintenance
             program. It did not have direction from its board, and maintenance staff lacked
             guidance and monitoring from management. In addition, the Commission did not
             provide training to its maintenance staff to ensure that they had the skills to
             maintain major systems in good operating condition, completed work orders in
             accordance with HUD requirements and/or its maintenance policy, and turned
             around its program units in a timely manner.

             The Commission’s executive director said the problems occurred because the
             Commission lacked a quality control plan for reviewing work orders and the
             maintenance supervisor did not review work orders. The Commission contracted
             with a quality control/procurement coordinator in October 2006 to perform
             quality control reviews within the Commission’s maintenance program.

Conclusion

             The Commission’s maintenance program places its program units at risk. HUD
             lacks assurance that the Commission used program operating subsidies to
             maintain its program units in good repair, order, and condition. The Commission
             did not receive total household payments for the 98 program units that were
             vacant for more than 30 days. In addition, it inappropriately received $9,501 in
             program operating subsidies for eight units that were vacant for more than 12
             months when it calculated its subsidy.

             If the Commission implements adequate procedures and controls over its
             maintenance program and ensures that its program units are turned around within
             30 days, we estimate that it will receive an additional $49,536 in future total
             household payments. We determined this amount by multiplying 32 units (the
             average number of units vacant more than 30 days from October 2004 through
             June 2006) by $129 (the average monthly total household payment from April
             through June 2006) by 12 months.

Recommendations

             We recommend that the director of HUD’s Detroit Office of Public Housing
             require the Commission to

             3A.    Reimburse its program $9,501 from nonfederal funds for the eight long-
                    term vacant units it included in its program operating subsidy calculations.




                                             22
3B.    Obtain board approval for its maintenance policy and implement a
       preventive maintenance program for units and systems.

3C.    Provide scheduled training for maintenance staff to update their
       maintenance skills.

3D.    Implement adequate procedures and controls over its maintenance
       program to ensure that work orders are completed in accordance with
       HUD requirements and/or its maintenance policy, program units are
       turned around in a timely manner, and households are appropriately
       charged for damages. By implementing adequate procedures and controls,
       the Commission should help to ensure that it receives at least $49,536 in
       additional total household payments over the next year.

We also recommend that the director of HUD’s Detroit Office of Public Housing

3E.    Revise the August 2005 memorandum of agreement with the Commission
       to ensure that it encompasses the recommendations cited in this finding.




                                23
Finding 4: The Commission Has Not Used Grant Funds It Received
                   More Than Nine Years Ago
The Commission failed to properly administer the home ownership program in accordance with
its agreement with eight lending institutions. Although the Commission received $240,000 in
Grant funds in June 1997 and entered into the agreement in September 1997, it did not ensure
that the eight lending institutions each provided $25,000 for the loan fund and had not assisted
any owner-occupants with a housing rehabilitation loan as of November 6, 2006. In addition, it
could not provide supporting documentation showing the source of $50,000 in the home
ownership program bank accounts. As a result, the City’s residents have not benefited from
more than $1 million in financing for the purchase and rehabilitation of family residential owner-
occupied homes. In addition, the Commission has not used the $240,000 in Grant funds it
received more than nine years ago.


 The Commission Did Not
 Properly Administer the Home
 Ownership Program


               The Commission did not properly administer the home ownership program. It
               deposited the $90,000 in Grant funds the City provided in June 1997 for a
               secondary mortgage pool for housing rehabilitation into an interest-bearing
               savings account. It did not ensure that the eight lending institutions each
               deposited $25,000 into a non-interest-bearing account upon execution of the
               agreement in September 1997. The Commission could only provide
               documentation that one of the lending institutions provided $25,000 in March
               1998 for the home ownership program. The Commission deposited the money
               into the interest-bearing savings account in April 1998. Its executive director and
               former executive director did not know and could not provide supporting
               documentation showing the source of the remaining $50,000 deposited in the
               account in December 1997. The account had earned $41,007 ($26,750 from
               Grant funds and $14,257 from unsupported funds) in interest as of August 31,
               2006.

               The Commission deposited the $150,000 in Grant funds the City provided in June
               1997 for a loan loss reserve fund into an interest-bearing certificate of deposit
               account. The account had earned $63,506 in interest as of August 18, 2006.

               The Commission disbursed $11,056 from the savings account for the activities of
               the Neighborhood Information and Sharing Exchange (Exchange), a nonprofit
               organization located in Benton Harbor, Michigan. The Commission used $2,977
               in May 2003 and $2,888 in April 2004 to pay insurance for two properties owned
               by the Exchange. The Commission then disbursed $5,191 in July 2004 to pay for
               the demolition of a building on one of the properties. An additional $178 from
               the savings account was used to pay bank service changes. Since the savings
               account earned more than $41,000 in interest and neither the Grant nor the


                                                24
             agreement specifies how interest must be used, we applied the disbursements for
             the Exchange’s activities to the earned interest. Therefore, the remaining balance
             of interest is $29,773 ($19,422 from the Grant funds and $10,351 from the
             unsupported funds).

             Although the amended budget for the City’s Grant funds states that the home
             ownership program target was 30 projects in its first year, the Commission had
             not assisted any owner-occupants with a housing rehabilitation loan as of
             November 6, 2006.

The Commission Lacked
Adequate Procedures and
Controls to Administer the
Home Ownership Program

             The Commission lacked adequate procedures and controls to administer the home
             ownership program. Its former acting executive director, who is now its deputy
             director and was with the Commission when the home ownership program was
             created, said that no one at the Commission knew the source of the funds in the
             home ownership program’s accounts and asked us during our entrance conference
             to determine the source of the funds. The Commission’s former executive
             director said that the Commission received applications for the home ownership
             program in 1997. The applicants either did not qualify due to not having a
             minimum credit score or steady income, or wanted to purchase homes outside of
             the City’s limits. However, neither the former executive director nor the
             Commission could provide documentation to support the former executive
             director’s statements. In addition, the Commission could not tell us why it did not
             move forward with the home ownership program in later years.

Conclusion

             The Commission’s failure to adequately administer the home ownership program
             did not allow the City’s residents to benefit from more than $1 million in
             financing for the purchase and rehabilitation of family residential owner-occupied
             homes. In addition, the Commission has not used the $240,000 in Grant funds
             since it received the funds in June 1997.

             Since the Commission also did not effectively manage its program (see findings
             1, 2, and 3) and failed to implement adequate procedures and controls over its
             Public Housing Capital Fund program (see OIG report number 2006-CH-1010),
             we do not believe it has the capacity to administer the home ownership program
             along with its other HUD-funded programs.




                                             25
Recommendations


          We recommend that the director of HUD’s Detroit Office of Public Housing, in
          coordination with the director of HUD’s Detroit Office of Multifamily Housing,
          require the Commission to

          4A.     Reimburse the City $240,000 ($150,000 for the loan loss reserve fund and
                  $90,000 for the secondary mortgage pool for housing rehabilitation) from
                  the home ownership program’s accounts so that the City can use the Grant
                  funds to support housing rehabilitation in the City.

          4B.     Transfer to its general fund $82,928 ($63,506 from interest earned on
                  Grant funds the City provided for a loan loss reserve fund and $19,422
                  from interest earned on Grant funds the City provided for a secondary
                  mortgage pool for housing rehabilitation) from the home ownership
                  program’s accounts so it can use the interest to provide housing services in
                  accordance with the Michigan Compiled Laws.

          4C.     Provide supporting documentation or transfer to its general fund $60,351
                  ($50,000 from the unsupported funds and $10,351 from interest earned on
                  the unsupported funds) from the home ownership program’s accounts so it
                  can use the interest to provide housing services in accordance with the
                  Michigan Compiled Laws.




                                           26
                         SCOPE AND METHODOLOGY

To accomplish our objectives, we reviewed

            •   Applicable laws; HUD’s regulations at 24 CFR [Code of Federal Regulations]
                Parts 5, 901, 902, 960, 965, and 990; HUD’s Public Housing Occupancy
                Guidebook; HUD’s Public Housing Occupancy Handbook 7465.1, REV-2; the
                2003 International Property Maintenance Code; section 125 of the Michigan
                Compiled Laws; and section 20 of the City’s Code.

            •   The Commission’s accounting records, annual audited financial statements for
                2004, general ledgers, bank statements and canceled checks, data from HUD’s
                Line of Credit Control system, program household files, computerized databases,
                by-laws, policies and procedures, board meeting minutes from January 2000
                through February 2006, organization chart, and program consolidated annual
                contributions contract.

            •   The City’s commissioners meeting minutes dated September 19, 2005, and
                inspection documentation for the Commission’s program units.

            •   HUD’s files for the Commission.

We also interviewed the Commission’s current and former employees, HUD staff, program
households, the City’s employees, and staff at Chemical Bank.

Finding 1

We statistically selected 42 of the Commission’s program units for inspection using the U.S.
Army Audit Agency’s Statistical Sampling software from the 109 units that were inspected by
the Commission from March 22 through June 16, 2006. The 42 units were selected to determine
whether the Commission ensured that its program units were in good repair, order, and
condition. Our sampling criteria used a 90 percent confidence level, 50 percent error rate, and
precision of plus or minus 10 percent.

Our sampling results determined that all 42 units (100 percent) were not maintained in good
repair, order, and condition and were in material noncompliance with HUD’s standards and the
Code. A unit is considered in material noncompliance when it contains multiple preexisting
deficiencies and/or the deficiencies were noted in the Commission’s previous inspections and/or
work orders but not corrected.

HUD calculated a per unit month program operating subsidy of $234 for 2006. We estimated
that the Commission would annually receive $153,036 (109 program units times a $234 per unit
month subsidy times a 50 percent error rate times 12 months) for units that were not in good
repair, order, and condition. This estimate is presented solely to demonstrate the annual amount
of program subsidies that could be put to better use on program units if the Commission
implements our recommendation. While these benefits would recur indefinitely, we were


                                               27
conservative in our approach and only included the initial year in our estimate. We also
considered that (1) the Commission did not identify many of the preexisting deficiencies during
its most recent inspections, (2) the units would not be scheduled for their next inspection for
another year under normal circumstances, and (3) it would take the Commission at least a year to
complete all inspections under an improved inspection process.

Finding 2

We statistically selected 53 of the Commission’s program household files using Excel and the
U.S. Army Audit Agency’s Statistical Sampling System from the 237 households residing in the
Commission’s program units as of March 2006. The 53 households were selected to determine
whether the Commission had supporting documentation for and correctly calculated total
household and utility allowance payments from October 2004 through March 2006. Our
sampling criteria used a 90 percent confidence level, 50 percent estimated error rate, and
precision of plus or minus 10 percent.

Our sampling results determined that the Commission incorrectly calculated total household
payments and/or utility allowances or made inaccurate utility allowance payments for 16 (28
percent) of the 53 households. The Commission did not receive total household payments and
overpaid utility allowance payments netting $1,164 ($2,891 in unreceived total household
payments minus $218 in excess total household payments received and $1,509 in underpayments
of utility allowance payments) for the 53 households. The average amount lost by the
Commission was $22 per household.

We performed our onsite audit work from March through September 2006 at the Commission’s
central offices located at 721 Nate Wells Senior Drive, Benton Harbor, Michigan, and 250 East
Wall Street, Benton Harbor, Michigan. The audit covered the period from October 2004 through
February 2006 and was expanded as determined necessary.

We performed our audit in accordance with generally accepted government auditing standards.




                                              28
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined the following internal controls were relevant to our audit objectives:

              •       Program operations - Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

              •       Validity and reliability of data - Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

              •       Compliance with laws and regulations - Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

              •       Safeguarding resources - Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.


 Significant Weakness

              Based on our review, we believe the following item is a significant weakness:


                                               29
•   The Commission lacked adequate procedures and controls to ensure
    compliance with HUD’s regulations, the Commission’s program policies
    and/or maintenance policy, and/or the City’s Grant agreement with HUD
    regarding unit conditions, household files, maintenance operations, and/or
    Grant funds (see findings 1, 2, 3, and 4).




                                30
                        FOLLOWUP ON PRIOR AUDITS

This is the second audit of the Commission by HUD’s Office of Inspector General (OIG). The first
audit report (OIG report number 2006-CH-1010), issued on May 18, 2006, included two findings.
The two findings are not repeated in this audit report. The most recent independent auditor’s report
for the Commission covered the year ending September 30, 2004. The report contained seven
findings. Two of the findings, which concern household files lacking third-party verification, the
use of incorrect medical deductions in total household payment calculations, and emergency
work orders not being completed within 24 hours, relate to findings 2 and 3 in this report.




                                                31
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

          Recommendation                                             Funds to be put
              number           Ineligible 1/        Unsupported 2/   to better use 3/
                1A                   $29,570
                1B                                                          $153,036
                2A                                       $166,782
                2B                     4,882
                2C                                                              2,231
                2D                                           7,583
                3A                     9,501
                3D                                                            49,536
                4A                                                           240,000
                4B                                                            82,928
                4C                                         60,351
               Totals               $43,953              $234,716           $527,731


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     polices or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an OIG recommendation is implemented. This includes
     reduction in outlays, deobligation of funds, withdrawal of interest subsidy, costs not
     incurred by implementing recommended improvements, avoidance of unnecessary
     expenditures noted in preaward reviews, and any other savings that are specifically
     identified. In these instances, if the Commission implements our recommendations it will
     cease to receive program operating subsidies for units that are not in good repair, order,
     and condition and will receive additional total household payments. Once the
     Commission successfully improves its procedures and controls, this will be a recurring
     benefit. Our estimate reflects only the initial year of these recurring benefits.



                                               32
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION

Ref to OIG Evaluation   Auditee Comments




Comment 1




                         33
Ref to OIG Evaluation   Auditee Comments




                         34
Ref to OIG Evaluation   Auditee Comments




                         35
                       OIG’s Evaluation of Auditee Comments

Comment 1   The Commission only provided documentation to support that U.S. Inspection
            Group, Inc. conducted complete inspections of 218 of the 234 program units not
            cited in finding 1.




                                           36
Appendix C
                                           Criteria

Finding 1
HUD’s regulations at 24 CFR [Code of Federal Regulations] 5.703 state that HUD housing must
be decent, safe, sanitary, and in good repair. A public housing authority (authority) must
maintain housing in a manner that meets HUD’s standards to be considered decent, safe,
sanitary, and in good repair. Section 5.703(g) states the standards do not supersede or preempt
state and local codes for building and maintenance with which HUD housing must comply.
HUD housing must continue to follow the state and local codes.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 5.705 state that any entity
responsible for conducting a physical inspection of HUD housing to determine compliance with
HUD’s standards must inspect the housing annually in accordance with HUD-prescribed
physical inspection procedures.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 990.140 state that an authority is
eligible to receive program operating subsidies for program units for each unit month that the
units are under a contract and occupied by a program-eligible family under lease.

Section 209 of the Commission’s contract with HUD requires that the Commission at all times
maintain each project in good repair, order, and condition.

Section 125.1504(2) of the Michigan Compiled Laws states that the state construction code,
consisting of rules governing the construction, use, and occupation of buildings and structures,
shall consist of the Code.

The City adopted the Code in September 2005.

Finding 2
HUD’s regulations at 24 CFR [Code of Federal Regulations] 5.216 require that each assistance
applicant submit the following information to the processing entity when the assistance
applicant’s eligibility under the program involved is being determined:

      A complete and accurate Social Security number assigned to the assistance applicant and
       to each member of the assistance applicant’s household who is at least six years of age or

      If the assistance applicant or any member of the assistance applicant’s household who is
       at least six years of age has not been assigned a Social Security number, a certification
       executed by the individual involved.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 5.240(c) state that an authority
must verify the accuracy of the income information received from a household and change the



                                                37
amount of the total household payment or rent or terminate assistance, as appropriate, based on
such information.

HUD regulations at 24 CFR [Code of Federal Regulations] 5.609 state that annual income
includes the full amount, before any payroll deductions, of wages and salaries, overtime pay,
commissions, fees, tips and bonuses, and other compensation for personal services; the net
income from the operation of a business or profession; interest, dividends, and other net income
of any kind from real or personal property; the full amount of periodic amounts received from
Social Security, annuities, insurance policies, retirement funds, pensions, disability or death
benefits, and other similar types of periodic receipts; payments in lieu of earnings, such as
unemployment and disability compensation, worker’s compensation, and severance pay; welfare
assistance payments; periodic and determinable allowances, such as alimony and child support
payments, and regular contributions or gifts received from organizations or from persons not
residing in the dwelling; and all regular pay, special pay, and allowances of a member in the
Armed Forces.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 960.253(c)(3) state that an income-
based tenant rent must not exceed the total household payment for the household minus any
applicable utility allowance for utilities paid by the household. If the utility allowance exceeds
the total tenant payment, the authority should pay the excess amount to the family or directly to
the supplier.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 960.257(a)(1) state that for families
who pay an income-based rent, an authority must conduct a reexamination of family income and
composition at least annually and must make appropriate adjustments in the rent after
consultation with the family and upon verification of the information.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 965.503 require an authority to
establish separate allowances for each utility and for each category of dwelling units determined
by the authority to be reasonably comparable as to facts affecting the utility use.

HUD’s Public Housing Occupancy Guidebook, chapter 7.11, states that each household file must
contain verification of the following information: names, relationship to the head of household,
and Social Security numbers of all household members and screening information, such as
verification of criminal history. Criminal records must not be filed in household files. Instead,
the files should document that a criminal background check was conducted, the result of the
check, and the source of the information.

Before November 2005, chapter 2, section C, of the Commission’s policies stated that families
are required to provide verification of Social Security numbers for all members of age six years
and older before admission. Section C3.0 now requires that complete and accurate verification
documentation be maintained for each resident. The documentation includes certified birth
certificates or other substantial proof of age, Social Security card or legal documents, and
statements from employers or other authoritative sources.

Before November 2005, chapter 2, section F, of the Commission’s policies stated that the
authority would check criminal history of all family members that are 18 years of age to
determine whether any family member had engaged in criminal activity. Section C2.0 now


                                                38
states that the applicant family must have no criminal activity which, if continued, could
adversely affect the health, safety, or welfare of other residents.

Before November 2005, chapter 7, section E, of the Commission’s policies stated families
claiming to have no income would be required to execute verification forms to determine that
households were not receiving income from unemployment benefits, aid to families with
dependent children, Social Security income, or any other sources. Section E.9 of appendix A
now states that families claiming to have no income must certify to this status at least quarterly
and are required to execute verification forms to determine that households are not receiving
income from unemployment benefits, temporary assistance for needy families, Social Security
income, or any other sources.

Before November 2005, section B of chapter 11 of the Commission’s policies required and
section D2.1 now requires each family to have its eligibility reexamined at least every 12
months. Section D2.3 states that interim re-examinations are performed for changes in
household composition or income, when a hardship occurs, or to correct an error.

Finding 3
HUD’s regulations at 24 CFR [Code of Federal Regulations] 901.5 state that a maintenance plan
is defined as a comprehensive annual plan of an authority’s maintenance operation that contains
the fiscal year’s estimated schedule and is supported by a staffing plan, contract schedule,
materials and procurement plan, training, and approved budget. The plan should establish a
strategy for meeting the goals and timeframes of facilities management planning and execution,
capital improvements, utilities, and energy conservation activities.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 901.10 state that the unit
turnaround time is the average number of calendar days between the time when a unit is vacated
and a new lease takes effect for units reoccupied during the authority’s assessed fiscal year.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 901.25(a) state that emergency
work orders are to be completed within 24 hours or less and all emergency work orders should
be tracked. Section 901.25(b) states that all nonemergency work orders, except for those
deferred for modernization, issued to prepare a vacant unit for rerental, or issued for the
performance of cyclical maintenance, should be tracked.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 990.109(b)(6)(iii)(B) state that if
the recalculated vacancy percentage is greater than 3 percent or more than five vacant units, an
authority will adjust its requested budget year occupancy percentage by excluding from their
calculation of unit months available those unit months attributable to units that have been vacant
for longer than 12 months that are not vacant units undergoing modernization or are not units
vacant due to circumstances and actions beyond an authority’s control. These are considered
long-term vacant units. Section (b)(6)(iv)(A) states that long-term vacant units removed from
the unit month available calculation are eligible to receive 20 percent of the authority’s allowable
expense level.

Chapter 2, section E, of HUD’s Maintenance Guidebook 1 states that a complete preventive
maintenance cycle should be scheduled for each development before the beginning of every


                                                 39
fiscal year. The preventive maintenance will also allow repairs to be made as needed and
problems to be identified and corrected in a timely manner.

Section 1.4 of the Commission’s maintenance policy states that the Commission shall have a
comprehensive work order system that includes the following work request information: source
of work, description of work, priority, cost to complete, days to complete, and hours to perform.
This information is required for the Commission to plan for the delivery of maintenance services
as well as evaluate performance. Work orders will also contain the following: preprinted
number, source of the request, priority assigned, location of the work, date and time received,
date and time assigned, worker assigned, description of the work requested, description of the
work performed, actual time to complete, materials used, resident charge, and resident signature.

Section 2.1 of the Commission’s maintenance policy states that an emergency is any situation
that constitutes a serious threat to the life, safety, or health to the residents or staff or that could
cause damage to the property structure or systems if not repaired within 24 hours. Examples of
emergency conditions are sewer backup, lockout, no electricity, no heat, an overflowing toilet,
and gas leaks.

Section 2.2 of the Commission’s maintenance policy states that the Commission’s director of
maintenance is responsible for developing and implementing a maintenance system that ensures
an average turnaround time of seven calendar days for vacant units.

Section 2.3 of the maintenance policy states that the purpose of the Commission’s preventive
maintenance program is to perform regular maintenance on all major systems that keep the
property operating. These systems include heating and air conditioning, electrical, life safety,
and plumbing.

Section 2.6 of the Commission’s maintenance policy states that resident-generated work orders
are considered as nonemergency calls unless the request is an emergency in nature. These work
orders must be completed within seven days. Unless the request is an emergency, these requests
will not be given a priority above scheduled routine and preventive maintenance.

Finding 4
The U.S. House of Representatives’ Conference Report 102-226 set aside $500,000 in Special
Purpose Grant (Grant) funds to support housing rehabilitation in the City. The City’s Grant
agreement with HUD, article I, section A, states that grant funds will only be used for activities
described in the application.

Exhibit A of the City’s application states that the City will use the $500,000 in Grant funds for
housing rehabilitation of existing structures in the City. The City budgeted $330,000 for
rehabilitation financing, $105,000 for purchase assistance, $35,000 for administration, and $30,000
for security systems. Exhibit D states that the project was to be administered by the City’s
Community Development Department and closely coordinated with Property Management
Corporation and other housing entities in the community. However, HUD approved an amended
budget for $360,000 of the Grant funds in February 1997. The City’s amended budget removed
$330,000 for rehabilitation financing and $30,000 for security systems and added $150,000 for a
loan loss reserve fund, $120,000 for downpayment assistance, and $90,000 for a secondary


                                                   40
mortgage pool for housing rehabilitation. The loan loss reserve fund and secondary mortgage pool
for housing rehabilitation were for a home ownership program to be administered by the
Commission. The amended budget stated that the home ownership program was a collaborative
among the Commission, the City, and lending institutions to allow owner-occupants living in the
City to finance up to 120 percent of the postrehabilitation appraisal value of the property. The home
ownership program target was 30 projects in its first year.

Section 125.653 of the Michigan Compiled Laws states that any city of the state of Michigan
may create, by ordinance, a housing commission with the power to purchase, acquire, construct,
maintain, operate, improve, extend or repair housing facilities and eliminate housing conditions
which are detrimental to the public peace, health, safety, morals, or welfare.

The agreement, dated September 9, 1997, between the Commission and eight lending institutions
stated that the Commission and the lending institutions have joined together to establish the
home ownership program with a $1 million loan fund to be used to finance in whole, or in part,
the purchase and rehabilitation of family residential owner-occupied homes in the City. Section
2.1 of article II states that upon execution of the agreement, each of the lending institutions shall
provide the home ownership program $25,000, which is to be deposited into a non-interest-
bearing account, to be used for the loan fund. Article III, section 3.1, states that the Commission,
as lead lender, shall be responsible for administering the home ownership program. Section
5.5.1 of article V states that the City is to provide $150,000 for a loan loss reserve fund to
reimburse the lending institutions for principal losses on defaulted loans and reimbursement of
certain expenses.




                                                 41
Appendix D

 HOUSEHOLD FILE REVIEWS – MISSING OR INCOMPLETE
                DOCUMENTATION
                                    Social         90-day zero-    Criminal    Program
      Household   Proof of legal   Security          income         activity   operating
       number        identity      number          certification   screening    subsidy
      02-095-05                                          X             X              $919
      02-097-13                                                        X               235
      02-101-14         X             X                 X              X             3,893
      02-104-08         X             X                 X                            3,893
      02-111-12         X             X                               X              3,681
      02-118-14         X             X                               X              3,893
      02-116-10         X             X                                              3,893
      02-124-12         X             X                               X              3,893
      02-125-18                       X                               X                469
      02-126-12         X             X                                              3,893
      02-129-13         X             X                                              3,893
      02-131-15                                                       X              1,134
      02-149-12         X             X                                              3,893
      02-162-18         X             X                               X              3,893
      02-166-09         X             X                               X              1,134
      02-168-17         X                               X             X              1,134
      02-179-22         X             X                 X                            3,893
      03-218-04                                                       X              3,893
      03-226-10                                                       X              3,893
      03-230-08         X             X                                              3,893
      03-239-02         X             X                               X              3,893
      03-250-03         X             X                               X              3,893
      03-257-07         X             X                               X              3,893
      03-261-01         X             X                               X              3,893
      03-266-04         X             X                                              3,893
      03-268-02         X             X                               X                235
      03-275-14         X             X                                              3,893
      03-282-07                                                       X                704
      03-288-06                                                       X                704
      03-294-08         X                                             X              3,893
      03-295-03         X             X                               X              1,985
      03-299-06                       X                                              3,893
      03-405-01         X             X                                              3,893
      03-406-02         X             X                                              3,893
      03-408-03         X             X                                              3,893
      03-409-01         X             X                                              3,893
      03-413-01         X                                                            3,893
      05-414-01         X             X                                              3,893
      05-417-02         X                                                            3,893
      05-429-02         X             X                                              3,893
      05-430-01         X             X                                              3,893
      05-440-02         X             X                                              3,893
      07-701-03                       X                                              3,893
      07-712-04                                                       X              2,621
      07-721-03         X                                             X              3,893
      07-722-03         X             X                                              3,893
      07-726-01         X                                                            3,893




                                              42
 HOUSEHOLD FILE REVIEWS – MISSING OR INCOMPLETE
            DOCUMENATION (CONTINUED)
                                         Social         90-day zero-    Criminal    Program
           Household   Proof of legal   Security          income         activity   operating
            number        identity      number          certification   screening    subsidy
           07-731-02         X             X                                              3,893
           09-909-03         X             X                               X              3,893
           09-911-02         X             X                               X              3,893
           09-913-02         X             X                                              3,893
             Totals          40           37                 5             26          $166,782


Note: An “X” identifies the missing or incomplete documentation in the household’s file.




                                                   43
